OJP State Criminal Alien



Return to the USDOJ/OIG Home Page



Office of Community OrientedPolicing Services
	Grants to the
	Antioch Police Department, California
GR-90-00-004October 1999Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Antioch Police Department (APD).  The purpose of the grants is to enhance community policing.  The APD was awarded a total of $825,000 to hire 11 new police officers.
	
	We reviewed the APD's compliance with seven essential grant conditions.  We found the APD's practices for budgeting, hiring, meeting the local match, preparing reimbursement requests, retention, and implementation of community policing to be acceptable.  However, we found that several status reports were either not timely or had not been filed.  

	 These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.